No.19-417

IN THE

EMW WOMEN'S SURGICAL CENTER, P.S.C., ON BEHALF OF ITSELF, ITS STAFF, AND ITS
PATIENTS; ERNEST MARSHALL, M.D., ON BEHALF OF HIMSELF AND HIS PATIENTS;
ASHLEE BERGIN, M.D., ON BEHALF OF HERSELF AND HER PATIENTS; TANYA FRANKLIN,
M.D., ON BEHALF OF HERSELF AND HER PATIENTS,

Petitioners,

V.
ADAM MEIER, IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
KENTUCKY CABINET FOR HEALTH AND FAMILY SERVICES,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE

I, Kimberly A. Parker, a member of the bar of this Court, hereby certify that, on
this 28th day of October, 2019, all parties required to be served have been served copies
of the Brief for Amici Curiae American College of Obstetricians and Gynecologists, The
American Medical Association, The North American Society for Pediatric and
Adolescent Gynecology, The American College of Osteopathic Obstetricians and
Gynecologists, and The American Academy of Family Physicians Supporting
Petitioners in this matter by overnight courier to the addresses on the attached service
list.

h~'t/H?~u-,y-~_::>

KIMBERLY A. PARKER
•
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
kimberly.parker@wilmerhale.com

SERVICE LIST
ALEXA KOLBI-MOLINAS
AMERICAN CIVIL LIBERTIES UNION

125 Broad Street, 18th Floor
New York, NY 10004
(212) 519-7845
akolbi-molinas@aclu.org

STEPHEN CHAD MEREDITH
COMMONWEALTH OF' KENTUCKY
OFFICE OF THE GOVERNOR

700 Capitol Avenue, Room 101
Frankfort, KY 40601
(502) 564-2611
chad.meredith@ky.gov

